919 THIRD AVENUE NEW YORK, NEW YORK 10022-3908

Susan J. Kohlmann
Tel +1 212-891-1690
Fax +1 212-891-1699
skohlmann@jenner.com

May 18, 2020

Scott Harris
Clerk of Court
U.S. Supreme Court
1 First Street, NE
Washington, DC 20543
Re:

Estate of Steinbeck v. Kaffaga, No. 19-1181

Dear Mr. Harris:
We represent Respondent in Estate of Steinbeck v. Kaffaga, No. 19-1181. Petitioner filed a petition for
certiorari after receiving a 55-day extension of time to file the petition; the petition was docketed on March
10, 2020. The brief in opposition is currently due on June 5, 2020. As a result of counsel’s professional
obligations in other matters, we respectfully move for a 31-day extension of time to file Respondent’s brief
(30 days from June 5th is a Sunday), to and including July 6, 2020.

Sincerely,

Susan J. Kohlmann
Counsel for Respondent

CHICAG O

LONDON

LOS ANGELES

NEW YORK

W ASHINGTON, DC

WWW. JENNER. C OM

